TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                                        RECOVERY ACT

                  The IRS Accurately and Timely Accounted
                  for American Recovery and Reinvestment
                   Act Fund Expenditures During the Period
                         February 17, 2009, through
                             September 30, 2009



                                        December 3, 2010

                           Reference Number: 2011-IE-R001




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                  DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           December 3, 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       R. David Holmgren
                             Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                    Final Inspection Report – The IRS Accurately and
                             Timely Accounted for American Recovery and
                             Reinvestment Act Fund Expenditures During the Period
                             February 17, 2009, through September 30, 2009
                             (IE-10-011-A)

 The Treasury Inspector General for Tax Administration (TIGTA) conducted an inspection of the
 Internal Revenue Service’s (IRS) compliance with the Office of Management and Budget’s
 (OMB)1 Implementing Guidance2 for the American Recovery and Reinvestment Act (Recovery
 Act) of 2009.3 This is the second in a series of inspections regarding compliance with OMB
 Recovery Act Guidance.
 This report presents the results of our inspection to verify the accuracy of the IRS’s accounting
 and timeliness of reporting Recovery Act procurement expenditures.
 The Recovery Act provides separate funding to the TIGTA through September 30, 2013, to be
 used in the oversight activities of IRS programs. This inspection was conducted using Recovery
 Act funds.




 1
   The OMB has the primary responsibility for developing Government-wide rules and procedures to
 ensure funds are awarded and distributed in a prompt and fair manner; uses of funds are transparent to
 the public; and steps are taken to mitigate fraud, waste and abuse.
 2
   M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
 February 18, 2009, and M-09-15, Updated Implementing Guidance for the American Recovery
 Reinvestment Act of 2009, April 3, 2009.
 3
   Pub. L. No. 111-5, February 17, 2009.
                  The IRS Accurately and Timely Accounted for
                 American Recovery and Reinvestment Act Fund
                Expenditures During the Period February 17, 2009,
                          through September 30, 2009


Synopsis
The IRS accurately and timely reported Recovery Act procurements and was in substantial
compliance with the OMB’s Implementing Guidance during the period February 17, 2009,
through September 30, 2009. They purchased goods and services totaling almost $14 million4
during the inspection period. Further, the IRS appropriately obtained nearly 82 percent of the
total available discounts for Recovery Act related procurements. For the Recovery Act
expenditures, the IRS is executing adequate internal controls to ensure timely and accurate
reporting. However, their controls and processes are not formally documented. The lack of
written procedures regarding Recovery Act procurement requirements was identified earlier this
year by TIGTA.5

Recommendations
To assist in ensuring proper documentation of Recovery Act expenditures, we recommend that
the Director, Procurement finalize the documentation of their Recovery Act procurement
processes.

Response
The IRS agreed with TIGTA's recommendation that the Director of Procurement finalize
documentation of Recovery Act procurement processes. The Procurement office completed a
Policy and Procedures Memorandum which documents the Recovery Act procurement
processes.6 Management’s complete response to the draft report is included as Appendix IV.
Please contact me at (202) 927-7048 if you have questions or Kevin Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




4
  The IRS received Recovery Act related invoices totaling $13,754,127.75 and paid $13,641.554.49;
realizing $112,573.26 in discounts of the maximum available discounts of $137,541.28, for 81.8 percent.
5
  TIGTA, Ref. No. 2010-11-071, Additional Actions Are Needed to Ensure Readiness to Comply With the
American Recovery and Reinvestment Act of 2009 Procurement Requirements 3 (June 2010).
6
  Policy and Procedures Memorandum No. 70.26 entitled, “American Recovery and Reinvestment Act of
2009” was approved on November 17, 2010.
                                                                                                          2
                        The IRS Accurately and Timely Accounted for
                       American Recovery and Reinvestment Act Fund
                      Expenditures During the Period February 17, 2009,
                                through September 30, 2009




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Inspection ......................................................................................... Page 4
          Recovery Act Expenditures Reported by the IRS were Accurate and
          Substantiated by Complete and Reliable Supporting Invoices ..................... Page 4
          Amounts the IRS Reported to the Office of Management and Budget
          Reconciled to the IRS’s Financial Systems .................................................. Page 4
          The IRS’s Financial Reports Complied with the Office of Management
          and Budget’s Guidance and Recovery Act Requirements ............................ Page 5
          The IRS Submitted the Recovery Act Reports in a Timely Manner ............ Page 5
                    Recommendation 1:.......................................................... Page 6


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Management’s Response to the Draft Report ...................... Page 12
              The IRS Accurately and Timely Accounted for
             American Recovery and Reinvestment Act Fund
            Expenditures During the Period February 17, 2009,
                      through September 30, 2009




                           Abbreviations

IRS                  Internal Revenue Service
OMB                  Office of Management and Budget
RAT Board            Recovery Accountability and Transparency Board
WebRTS               Web Request Tracking System
                   The IRS Accurately and Timely Accounted for
                  American Recovery and Reinvestment Act Fund
                 Expenditures During the Period February 17, 2009,
                           through September 30, 2009




                                         Background

The American Recovery and Reinvestment Act (Recovery Act) of 2009,1 enacted on
February 17, 2009, contained both spending and tax provisions. The Recovery Act allocated
$787 billion over 10 years designed to stimulate the national economy.
The Internal Revenue Service (IRS) is responsible for administering tax law changes2 contained
in the Recovery Act. In April 2009, the IRS received $202 million of $203 million of its
appropriation of the Recovery Act funds.3 These funds are required to implement the necessary
tax related changes resulting from the Recovery Act provisions. These changes will include
reprogramming the IRS computer systems and updating related tax forms, publications, and
providing customer services to assist taxpayers in obtaining their benefits. Further, we were
informed that the Department of the Treasury retained $1 million for administrative oversight.
The Recovery Act requires stringent accountability for performance and results, as well as
unprecedented transparency. The Recovery Accountability and Transparency Board (RAT
Board),4 provides transparency in the use of Recovery Act and related funds by publishing these
results on Recovery.gov, http://www.recovery.gov, (last visited September 21, 2010).




1
  Pub. L. No. 111-5, February 17, 2009.
2
  The Recovery Act included more than 50 tax law provisions that the IRS is charged with administering.
These tax changes included refundable credits, such as the Making Work Pay and First-Time Homebuyer
Credits.
3
  Pub. L. No. 111-5, February 17, 2009. This appropriation included $80 million for Fiscal Years 2009
through 2010 to implement the Health Coverage Tax Credit program. The IRS also received $123 million
for supporting tax provision changes cited in the Recovery Act.
4
  The RAT Board was created by the Recovery Act with two goals: to provide transparency of Recovery-
related funds and to prevent and detect fraud, waste, and mismanagement. Twelve Inspectors General
from various Federal agencies serve with the chairman. The RAT Board issues quarterly and annual
reports to the President and Congress and, if necessary, “flash reports” on matters that require immediate
attention.
                                                                                                  Page 1
                   The IRS Accurately and Timely Accounted for
                  American Recovery and Reinvestment Act Fund
                 Expenditures During the Period February 17, 2009,
                           through September 30, 2009


The Office of Management and Budget (OMB)5 issued several supplemental guidance
documents6 that outlined steps for implementing the Recovery Act and also clarified the new
requirements for processing procurements. The OMB’s Initial Implementing Guidance was
issued on February 18, 2009. Additional guidance was dated February 25, 2009, April 3, 2009,
and March 22, 2010, and included the following requirements:
    1. Federal agencies are to report to the RAT Board on a weekly basis, all cumulative
       Recovery Act obligations and gross outlays7 (expenditures) in a standard reporting
       format;
    2. Federal agencies are to use separate Treasury Appropriation Fund Symbols8 to track and
       report Recovery Act obligations and disbursements; and
    3. Federal agencies are to report the cumulative activity through Friday and submit their
       weekly reports the following Tuesday.
The IRS’s Office of the Chief Financial Officer prepares the Total Obligations and Gross
Outlays sections of the OMB Financial and Activity Report and submits it to the IRS’s Recovery
Act staff weekly. The staff validates the information and posts it to the OMB’s MAX web page9
for the Department of the Treasury’s consolidation and approval prior to their final posting.
This inspection was performed at the IRS Office of the Chief Financial Officer in
Washington, D.C. and the IRS Office of Procurement in Oxon Hill, Maryland, during the period
May through September 2010. The period of the inspection was from February 17, 2009,



5
  The OMB has the primary responsibility for developing Government-wide rules and procedures to
ensure funds are awarded and distributed in a prompt and fair manner; uses of funds are transparent to
the public; and steps are taken to mitigate fraud, waste and abuse.
6
  M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
February 18, 2009, and M-09-15, Updated Implementing Guidance for the American Recovery
Reinvestment Act of 2009, April 3, 2009.
7
  Total Obligations equal financial commitments and expenditures. Total Outlays are only expenditures.
8
  Treasury Appropriation Fund Symbol is an identification code assigned by the Department of the
Treasury, in collaboration with the OMB and the owner agency, to an individual appropriation, receipt, or
other fund account. It is used to describe a particular type of Treasury Fund Symbol that has budget
authority. All financial transactions of the Federal Government are classified by a Treasury Fund Symbol
for reporting to the Department of the Treasury and the OMB.
9
  OMB's Max web page is a web-based apportionment system to send apportionment requests to OMB.
Agency budget offices use the apportionment application to help prepare apportionment requests; send
requests to OMB and run reports against previously approved apportionments. OMB examining divisions
use the application to send electronic copies of approved apportionment to agencies and run reports
against previously approved apportionments.
                                                                                                  Page 2
                  The IRS Accurately and Timely Accounted for
                 American Recovery and Reinvestment Act Fund
                Expenditures During the Period February 17, 2009,
                          through September 30, 2009


through September 30, 2009, to coincide with the enactment of the Recovery Act until the end of
the Fiscal Year 2009.
We will inspect Recovery Act procurement activities for Fiscal Year 2010 in other ongoing or
planned inspections.
This inspection was performed in accordance with the Council of the Inspectors General for
Integrity and Efficiency Quality Standards for Inspections. Those standards require that we plan
and perform the inspection/evaluation to obtain sufficient, appropriate evidence to provide a
reasonable basis for the findings and conclusions based on the objectives. We believe that the
evidence obtained provides a reasonable basis for the findings and conclusions based on the
objectives. Detailed information on the objectives, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                          Page 3
                   The IRS Accurately and Timely Accounted for
                  American Recovery and Reinvestment Act Fund
                 Expenditures During the Period February 17, 2009,
                           through September 30, 2009




                               Results of Inspection

The IRS accurately and timely reported the Recovery Act procurements and was in substantial
compliance with the OMB Implementing Guidance during the period February 17, 2009, through
September 30, 2009. For the Recovery Act expenditures, the IRS is executing adequate internal
controls to ensure timely and accurate reporting. However, their controls and processes are not
formally documented. The need for written procedures regarding Recovery Act procurement
requirements was identified earlier this year by the Treasury Inspector General for Tax
Administration.10

Recovery Act Expenditures Reported by the IRS were Accurate and
Substantiated by Complete and Reliable Supporting Invoices
During the period February 17, 2009, through September 30, 2009, the IRS initiated procurement
actions implementing the Recovery Act program objectives. The IRS purchased goods and
services totaling almost $14 million.11 These purchases consisted of systems changes for
reprogramming the IRS’s computer systems and updating related tax forms, publications and
customer services to assists taxpayers in obtaining the Recovery Act benefits. Further, the IRS
appropriately obtained nearly 82 percent ($112,000 of $137,000) of the total available discounts
for Recovery Act related procurements.

Amounts the IRS Reported to the Office of Management and Budget
Reconciled to the IRS’s Financial Systems
The IRS submitted accurate weekly reports of cumulative Recovery Act obligations and gross
outlays. The IRS reported their initial obligation for $20 million for Health Insurance Tax Credit
Administration posted on the IRS’s April 24, 2009, report. We verified the accuracy of the
IRS’s weekly reports by reconciling individual vendor invoices to the appropriate IRS weekly
report submitted to the Department of the Treasury and to the information reported on
Recovery.gov, http://www.recovery.gov, (last visited September 21, 2010).

10
   Treasury Inspector General for Tax Administration, Ref. No. 2010-11-071, Additional Actions Are
Needed to Ensure Readiness to Comply With the American Recovery and Reinvestment Act of 2009
Procurement Requirements 3 (June 2010).
11
   The IRS received Recovery Act related invoices totaling $13,754,127.75 and paid $13,641.554.49;
realizing $112,573.26 in discounts of the maximum available discounts of $137,541.28 (81.8 percent).
                                                                                                Page 4
                   The IRS Accurately and Timely Accounted for
                  American Recovery and Reinvestment Act Fund
                 Expenditures During the Period February 17, 2009,
                           through September 30, 2009


Transparency and accuracy is very dependent on the Recovery Act related procurements being
properly classified. These Recovery Act procurements were issued as additional Contract Line
Item Numbers12 in WebRTS, Integrated Financial System,13 and on invoices.

The IRS’s Financial Reports Complied with the Office of Management
and Budget’s Guidance and Recovery Act Requirements
The IRS complied with OMB guidance and Recovery Act requirements by:
        •   Submitting weekly reports of its cumulative Recovery Act obligations and gross
            outlays in the prescribed format;
        •   Using separate Treasury Appropriation Fund Symbols for their two Recovery Act
            funds; and
        •   Ensuring Recovery Act financial reporting is transparent to the public by posting data
            to the IRS Recovery Act Web site and submitting data to the RAT Board for posting
            to the Government-wide Web site.

The IRS Submitted the Recovery Act Reports in a Timely Manner
The IRS submitted timely financial reports to the Department of the Treasury for submission to
the RAT Board. The reports included obligation and gross outlay activity through the prior
Friday. The Department of the Treasury transmits the reports weekly to the RAT Board. The
OMB requires Federal agencies to transmit the reports each Tuesday afternoon, but will allow an
extension until Wednesday morning. The RAT Board includes timely received reports from the
agencies in its weekly posting to Recovery.gov, http://www.recovery.gov, (last visited
September 21, 2010). This process will assist in ensuring that the public has unprecedented
transparency into how the IRS is using Recovery Act funds.




12
   Federal Acquisition Regulation 4.1001 states, “Contract line items should provide unit prices or lump
sum prices for separately identifiable contract deliverables, and associated delivery schedules or
performance periods. Line items may be further subdivided or stratified for administration purposes.”
13
   Financial system used by the IRS to ensure proper accounting and timely reporting of the appropriated
funds received by the IRS.
                                                                                                  Page 5
                  The IRS Accurately and Timely Accounted for
                 American Recovery and Reinvestment Act Fund
                Expenditures During the Period February 17, 2009,
                          through September 30, 2009


Recommendation
Recommendation 1: To assist in ensuring proper documentation of Recovery Act
expenditures, we recommend that the Director, Procurement finalize the documentation of their
Recovery Act procurement processes.
       Management’s Response: The IRS agreed with the recommendation that the
       Director of Procurement finalize documentation of Recovery Act procurement processes.
       The Procurement office completed a Policy and Procedures Memorandum which
       documents the Recovery Act procurement processes.14




14
  Policy and Procedures Memorandum No. 70.26 entitled, “American Recovery and Reinvestment Act of
2009” was approved on November 17, 2010.
                                                                                           Page 6
                   The IRS Accurately and Timely Accounted for
                  American Recovery and Reinvestment Act Fund
                 Expenditures During the Period February 17, 2009,
                           through September 30, 2009


                                                                                        Appendix I

       Detailed Objectives, Scope, and Methodology

The overall objective of this inspection was to verify the accuracy of the IRS's accounting and
timeliness of reporting of American Recovery and Reinvestment Act (Recovery Act) of 20091
procurement expenditures. This inspection also determined whether the invoices submitted by
the contractor and paid by the IRS were accurate, supported, and allowable. We reviewed all six
invoices for the period February 17, 2009, through September 30, 2009. The IRS purchased
goods and services totaling $13,754,127.
To accomplish these objectives, we:
I.      Determined whether Recovery Act procurement expenditures reported by the IRS are
        accurate and substantiated by complete and reliable supporting invoices.
        A. Interviewed IRS personnel involved in the administration of Recovery Act related
           contracts to gain an understanding of the invoice verification process.
        B. Obtained all Recovery Act related procurement contracts for the period
           February 2009 through September 2009, and related invoices paid through
           October 2009, covering expenditures through September 30, 2009.
        C. Identified all Recovery Act related procurement expenditures during February 2009
           through September 2009.
        D. Traced Recovery Act procurement expenditures to available supporting
           documentation.
        E. Verified the mathematical accuracy of each expenditure and supporting
           documentation.
II.     Determined if the reports submitted by the IRS to the Office of Management and Budget
        (OMB)2 reconciled to their financial system.



1
  Pub. L. No. 111-5, February 17, 2009.
2
  The OMB has the primary responsibility for developing Government-wide rules and procedures to
ensure funds are awarded and distributed in a prompt and fair manner; uses of funds are transparent to
the public; and steps are taken to mitigate fraud, waste and abuse.

                                                                                                 Page 7
                    The IRS Accurately and Timely Accounted for
                   American Recovery and Reinvestment Act Fund
                  Expenditures During the Period February 17, 2009,
                            through September 30, 2009


        A. Obtained all the weekly Financial and Activity Reports3 provided to the Department
           of the Treasury and subsequently submitted to the Recovery Accountability and
           Transparency Board (RAT Board),4 and posted to the Recovery Act Web site
           http://www.recovery.gov, (last visited September 21, 2010).
        B. Obtained Status of Funds reports from the IRS’s Integrated Financial System.5
        C. Reconciled the sum of the obligations, expenditures and disbursement amounts from
           the Integrated Financial System report to the Total Obligations and Gross Outlays6
           columns of the Financial and Activity Report.
        D. Reconciled the 25 weekly reports provided during the period April 24, 2009, through
           September 30, 2009. This was in addition to reviewing reports for the prior period of
           February 23, 2009, through April 23, 2009.
III.    Determined whether the IRS has established effective controls to identify, record, and
        report Recovery Act expenditures in accordance with the OMB’s guidance.7
        A. Obtained and reviewed all guidance issued by the OMB pertaining to procuring goods
           and services using Recovery Act funds.
        B. Reviewed the IRS’s methodology for recording and monitoring Recovery Act funds.
        C. Evaluated procedures for recording Recovery Act obligations and payments made
           against Recovery Act funds.



3
  The Financial and Activity Report is required by all agencies receiving Recovery Act funds. They must
submit the following information to OMB for cumulative Recovery Act activities through the preceding
Friday: cumulative year-to-date amounts by Treasury Appropriation Fund Symbol, total appropriations,
total obligations and total expenditures as recorded in the agency’s financial systems and a short bulleted
list of the major actions taken to dated and major planned actions. “Major” actions include those of likely
interest to senior government officials, Congress, and the public.
4
  The RAT Board was created by the Recovery Act with two goals: to provide transparency of Recovery-
related funds and to prevent and detect fraud, waste, and mismanagement. Twelve Inspectors General
from various Federal agencies serve with the chairman. The RAT Board issues quarterly and annual
reports to the President and Congress and, if necessary, “flash reports” on matters that require immediate
attention.
5
  Financial system used by the IRS to ensure proper accounting and timely reporting of the appropriated
funds received by the IRS.
6
  Total Obligations equal financial commitments and expenditures. Total Outlays are only expenditures.
7
  M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
February 18, 2009, and M-09-15, Updated Implementing Guidance for the American Recovery
Reinvestment Act of 2009, April 3, 2009.
                                                                                                   Page 8
                   The IRS Accurately and Timely Accounted for
                  American Recovery and Reinvestment Act Fund
                 Expenditures During the Period February 17, 2009,
                           through September 30, 2009


        D. Identified concerns and issues currently being experienced in regards to contractors,
           invoicing / billing practices, or any specific invoices.
        E. Verified that separate Treasury Appropriation Fund Symbols8 were used for their two
           Recovery Act funds. One was used for Administrative Expense – Recovery Act and
           a second for Health Insurance Tax Credit Administration – Recovery Act.
IV.     Reviewed the IRS’s procedures to ensure timely reporting of Recovery Act expenditures,
        including established internal controls.
        A. Discussed the process to record and report Recovery Act expenditures to the
           Department of the Treasury for inclusion in the Financial and Activity Report.
        B. Reviewed Department of the Treasury Financial and Activity Reports from February
           through September 2009 posted on Recovery.gov, http://www.recovery.gov, (last
           visited September 21, 2010).




8
  Treasury Appropriation Fund Symbol is an identification code assigned by the Department of the
Treasury, in collaboration with the OMB and the owner agency, to an individual appropriation, receipt, or
other fund account. It is used to describe a particular type of Treasury Fund Symbol that has budget
authority. All financial transactions of the Federal Government are classified by Treasury Fund Symbol
for reporting to the Department of the Treasury and the OMB.

                                                                                                   Page 9
                 The IRS Accurately and Timely Accounted for
                American Recovery and Reinvestment Act Fund
               Expenditures During the Period February 17, 2009,
                         through September 30, 2009


                                                                   Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director
Stanley Rinehart, Supervisory Evaluator
Roy Burton, Program Analyst




                                                                        Page 10
                 The IRS Accurately and Timely Accounted for
                American Recovery and Reinvestment Act Fund
               Expenditures During the Period February 17, 2009,
                         through September 30, 2009


                                                                   Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons: Chief, Agency-Wide Shared Services OS:A:F




                                                                         Page 11
      The IRS Accurately and Timely Accounted for
     American Recovery and Reinvestment Act Fund
    Expenditures During the Period February 17, 2009,
              through September 30, 2009


                                                        Appendix IV

Management’s Response to the Draft Report




                                                             Page 12
  The IRS Accurately and Timely Accounted for
 American Recovery and Reinvestment Act Fund
Expenditures During the Period February 17, 2009,
          through September 30, 2009




                                                    Page 13
